Supreme Court, U.S“
FILED

o?o- m

OCT 0 2 2020

No. 21-

OFFICE OF THE Cl FRk-

In The
SUPREME COURT of the UNITED STATES

Robert A. Heghmann
Petitioner,
v.
The Democratic National Committee,
Tom Perez, Chairman, Frank Leone,
Doris Crouse-Mays, Members, the Democratic
Congressional Campaign Committee, Rep. Ben
Rey Lujan, Chairman, Elaine Luria and Hon.
Karen L. Hass, Clerk, U.S. House of
Representatives,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Robert A. Heghmann
P.O. Box 6342
Virginia Beach, VA 23456
(603) 866 - 3089
Bob Heghmann@Reagan.com

RECEIVED
OCT - 7 2020
supremeFcourtLu!sK

QUESTION PRESENTED

Petitioner, a registered voter, filed suit claiming that the
Democratic Congressional Campaign Committed violated his rights as
a voter by violating the Constitutional Rights of African-American
Candidates in his Congressional District during the run up to the 2018
Congressional Elections. In dismissing the Complaint, the Courts below
ruled that to have standing a Plaintiff must either (l) be an AfricanAmerican candidate in the Congressional Election or (2) be a voter who
is supporting a specific African-American candidate who is being
discriminated against.
Does a voter have standing to challenge racial discrimination by
the Democratic Party in Congressional Primary Elections based upon
the challenged discrimination limiting his choice of candidates by
preventing would be candidates from entering the Congressional
Primaries.

TABLE OF CONTENTS
Page
QUESTION PRESENTED..

1

TABLE OF AUTHORITIES

m

STATEMENT OF FACTS

1

OPINIONS BELOW

3

JURISDICTION,

3

ARGUMENT
IN ORDER TO WIN CONTROL OF THE
U.S. HOUSE OF REPRESENTITIVES THE
DEMOCRATIC CAMPAIGN COMMITTEE
THREW AFRICAN-AMERICAN CANDIDATES
AND THE CONSTITUTION UNDER THE BUS

3

THE PETITIONER HAS STANDING AS A VOTER
TO CHALLENGE THE ALLEGED CONSTITUTIONAL
VIOLATIONS

9

THE COURTS EXPETATION THAT AFRICAN-AMERICAN
CANDIDATES WOULD JUDICIALLY CHALLENGE THE
D TRIPLE C IS UNREALISTIC

11

THE CASES CITED BY THE COURTS BELOW ARE
NOT RELEVANT TO THE PETITIONER'S STANDING
ARGUMENT

12

REASONS FOR GRANTING THE PETITION

13

CONCLUSION

14

i

APPENDIX

15

EXHIBIT 1: Dismissal Order, Heghmann v.
Democratic National Committee, U.S.
District Court, Eastern District of Virginia
EXHIBIT 2 Per Curiam Order, Heghmann v.
Democratic Committee, U.S. Court of Appeals
for the Fourth Circuit

ii

TABLE OF AUTHORITIES
CASES
Page
Anderson v. Celebreeze, 460 U.S. 780 (1982)

10

Baker v. Carr; 369 U.S. 186 (1962)

12

Barrows v. Jackson, 346 U.S. 249 (1953)

12

Bullock v. Carter, 405 U.S. 134 (1772)

8,9

Clements v. Fashing, 457 U.S. 957 (1982)

9, 10

Craig v. Boren, 429 U.S. 190, 193 -194 (1976)

12

Crist v. Comm’n on Presidential Debates, 262 F.3d 193 (2d Cir. 2001)

13

Gottlieb v. Fed. Election Comm’n, 143 F.3d 618 (D.D.C. 1998)

13

Grivey v. Townsend, 295 U.S. 45 (1935)

4

Lubin v. Banish, 415 U.S. 709 (1973)

9,12

Morse v. Republican Party of Virginia, 517 U.S. 186 (1996)

in

5

Page
Secretary ofState ofMaryland v. Munson, 467 U.S. 947 (1984)

Smith v. Allwright Election Judge, 321 U.S. 649 (1944)

9,12

4,5

Storer v. Brown, 415 U.S. 724 (1974)

10

Tileston v. Ullman, 318 U.S. 44 (1943)

12

Terry v. Adams, 345 U.S. 461 (1953)

5

United States v. Raines, 362 U.S. 17 (i960)

United States v. CIO, 335 U.S. 106 (1948)

U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779 (1995)

. 12

5

5,13

Warth v. Seldin, 422 U.S. 490 (1975)

11

Williams v. Rhodes, 393 U.S. 23 (1968)

10

STATUTES
28 U.S.C. Sec. 2101 (c)

3

IV

Page

PUBLICATIONS

Bill Bartel, “I’m mad now”: Democrats’ favoritism in Hampton
Roads agitates Rivals, the Virginia-Pilot, Feb. 20, 2018.............

6

Elliot’s Debates

13

The European Convention, Article 3, First Protocol

. 10

Patrick Wilson, Unpaid staff for Va. Beach progressive honing for
upset over party-backed opponent. Richmond Times-Dispatch,
June 10, 2018

7

v

STATEMENT OF FACTS
Refusing to accept the result of the 2016 Presidential Campaign and the
election of Donald J. Trump as President, the leaders of the Democratic Party were
bound and determined to remove President Trump by Impeachment. To do that the
Democratic Party had to gain control of the House of Representatives where the
process of Impeachment begins. In order to obtain control of the House of
Representatives the Democratic Party used the Democratic Congressional Campaign
Committee, (hereinafter “the D-Triple-C) to hijack the Primary Election Process in
some 95 Districts including the Primary Election in the 2nd Congressional District in
Virginia in which the Petitioner is registered to vote. They began this process by
selecting approved candidates as part of its Red to Blue Program who were selected
in a Pre-Primary Selection Process conducted in Washington, D.C. by Democratic
Party elites totally removed from the actual Primaries being conducted locally in each
District including the 2nd C.D. in Virginia.
The D-Triple-C studied the Cook Political Report and the 55 Districts in which
Republicans were currently in office and where demographics might determine the
outcome of the 2018 election. The D-Triple-C decided that their best chance to “flip”
those districts and others was to nominate white candidates, preferably women.
Therefore, the D-Triple-C secretly in Washington selected 88 white candidates to the
exclusion of candidates of color for its Red to Blue Program. When civil rights groups
saw the “white only” candidates selected by the D Triple C, they complained
vigorously. As a result, the D-Triple-C did add 8 minority candidates to the Red to

1

Blue Program to run in mainly minority-majority Districts. Despite this late addition,
the Red to Blue Program was comprised of 95 candidates of which 88 (including
Elaine Luria the D Triple C candidate nominated in the Virginia’s 2nd C.D.) or 91.6%
were White and 8 or 8.4% were minority.
With the Pre-Primary Selection Process complete, the D-Triple-C corrupted
the state primaries. First, it went into their selected districts and announced its
selection for the nomination to the exclusion of all other local candidates, including
candidates of color who had been campaigning sometimes for months. This had an
immediate impact upon the local candidates and their ability to attract political
contributions as well as votes. The D-Triple-C then put enormous resources behind
the Red to Blue Candidate and literally “swamped” the local candidates who were
totally unable to complete thereby guaranteeing that the Red to Blue candidate was
nominated.
The Petitioner is a retired white Republican attorney. Virginia is an open
primary state which allows a voter to choose between the Republican or Democratic
Primary regardless of party registration. Seeing the tactics adopted by the D-TripleC, the Petitioner filed this action in the U.S. District Court to protect the rights of
voters to have the broadest possible choice of candidates as well as the right of
African-American candidates to run in the Democratic Primary on an equal par with
white candidates.

2

OPINIONS BELOW
The District Court dismissed the Petitioner’s Complaint for lack of standing.
The Court adopted the Defendants’ position that the Petitioner, “[c]annot bring a
ballot access claim as a voter because he has not identified a single candidate who
was excluded from the ballot as a result of the discrimination he alleges”. Dismissal
Order, Slip Opinion at 12. The Court of Appeals affirmed per curiam without further
elaboration.
JURISDICTION
This Court has jurisdiction over an Appeal from the Final Judgment of a United
States Court of Appeals under 28 U.S.C. Sec. 2101 (c).
ARGUMENT
IN ORDER TO WIN CONTROL OF THE U.S. HOUSE OF REPRESENTITIVES
THE DEMOCRATIC CAMPAIGN COMMITTEE THREW AFRICAN-AMERICAN
CANDIDATES AND THE CONSTITUTION UNDER THE BUS
In the aftermath of the War of Northern Aggression and adoption of the 13th,
14th and 15th Amendments, the Old South sought ways to keep African Americans
from voting and running for office. One of their methods was to make the Political
Parties the gate-keepers who decided who could or could not run in Primaries and
then the General Elections. State law provided that only the political parties could
nominate candidates in the Primaries. Political parties only nominated Members of
the Party to run in the Primaries and African Americans could not be Members of the
Democratic Party. Therefore, African Americans could not run in Democratic Party

3

Primaries and since the Democrats always won the General Election, AfricanAmericans could not be elected.
The argument when this systematic exclusion of African-Americans from
Democratic Party Primaries was challenged, the argument made was that political
parties were private organizations and therefore beyond the reach of the 14th and 15th
Amendments. As late as 1935 the U.S. Supreme Court accepted this argument in
Grivey v. Townsend, 295 U.S. 45 (1935).
Nine years later, the Supreme Court overruled Grivey in Smith v. Allwright
Election Judge, 321 U.S. 649 (1944) and held that when participating in the Primary
Process the Democratic Party became a state actor and any attempt to become a
“gate-keeper” would violate the 14th and 15th Amendments.
Undeterred, those who would deny minorities their voting rights tried a new
tactic. The Democratic Association of Jaybirds (hereinafter “Jaybirds”) was a national
movement designed to deny African Americans access to the ballot. In order to avoid
both the 15th Amendment and Smith v. Allwright, the Jaybirds were organized as
follows. The all-white Jaybirds held a Jaybird only Pre-Primary Primary. Only white
members of the Jaybirds could declare their candidacy for public office in the “PrePrimary”. When the results of the Pre-Primary elections were announced, the
winners of the Jaybird Pre-Primaries entered the Democratic State Primary with all
the Jaybird voters and financial resources behind them. As a result, the winner of the
Jaybird Pre-Primary was always the winner of the Democratic Primary and the
winner of the Democratic Primary always won the General Election.
4

The Jaybirds argued that they were not covered by either the 15th Amendment
or Smith v. Allwright. The Supreme Court disagreed. In Terry v. Adams, 345 U.S.
461 (1953) the Court held that the combination of the election procedure of the
Jaybirds and the Democratic Party deprived the Plaintiffs of their 15th Amendment
rights.
This concept of a political party being a state actor in the context of Primaries
and General Elections is now firmly established in the law.
The Voting Rights Act uses the same word as the Fifteenth
Amendment-'State”—to define the authorities bound to honor the right to vote.
Long before Congress passed the Voting Rights Act, we had repeatedly held
that the word “State” in the Fifteenth Amendment encompassed political
parties. See Smith v. Allwright> Terry v. Adams. How one can simultaneously
concede that “State” reaches political parties under the Fifteenth Amendment,
yet argue that it “plainly” excludes all such parties in §5, is beyond our
understanding. Imposing different constructions on the same word is
especially perverse in light of the fact that the Act-as it states on its face-was
passed to enforce that very Amendment. See United States v. CIO, 335 U.S.
106, 112 (1948) (“There is no better key to a difficult problem of statutory
construction than the law from which the challenged statute emerged”).
Speculations about language that might have more clearly reached political
parties are beside the point. It would be a mischievous and unwise rule that
Congress cannot rely on our construction of constitutional language when it
seeks to exercise its enforcement power pursuant to the same
provisions, (footnote omitted) Morse v. Republican Party of Virginia, 517 U.S.
186, 221 (1996)

The D-Triple-C is the functional equivalent of the Jaybirds. In order to enhance
their chances of winning the General Election, the D-Triple-C pre-selected the
candidates in the Democratic Primary through private interviews in Washington
D.C. In order to assure victory in the General Election, the D-Triple-C limited
5

candidate selection to white candidates, primarily women. Of the candidates selected
in the D-Triple-C “Red to Blue” campaign, 92% were white. Only 8% of the candidates
were Minority and they were only chosen after civil right groups began to publicly
attack the Red to Blue campaign where men and women of color or progressive
candidates need not apply. Thus, just like the Jaybirds, the D-Triple-C denied men
and women of color their 15th Amendment Rights in the State Democratic Primary.
. The D-Triple-C might have been more responsive to African American
Candidates if more African Americans served on the Committee. According to the DTriple-C web site, the Committee was comprised of twenty-four (24) officers. Of the
24, only two are clearly of African American decent and one of those, Donald
McEachin, was born and raised in Nuremberg, Germany. It’s unclear how down with
the cause Mr. McEachin was since as the Regional Vice Chair covering Virginia, he
helped choose Elaine Luria as the candidate in Virginia’s 2nd C.D. without even
interviewing an African American female candidate who had run for Congress in
2016 and had already declared her candidacy in 2017 and entered the race. Bill
Bartel, “I’m mad now”: Democrats’ favoritism in Hamnton Roads agitates Rivals, the
Virginia-Pilot, Feb. 20, 2018.
Once the D-Triple-C selected its candidates, it supported them with so much
money and resources that local candidates could not compete and the D-Triple-C
candidates usually won the State Democratic Primary. One such example was Karen
Mallard in Virginia’s 2nd C.D.

6

They’re out of money. Even the campaign managers aren’t being
paid.
We are all volunteers,” said Alex Josey, a retired Army officer from
Virginia Beach who’s among the force that’s been working for [Karen]
Mallard and hoping for an upset over Elaine Luria, a strongly-funded
candidate thanks to an early endorsement from the Democratic
Congressional Campaign Committee.
“It irritates us that the DCCC got involved before the primaries were
completed,” Josey said. “So, yeah, it makes us work harder.” Could
Mallard, a schoolteacher and union member, upend Luria, a former
naval officer with significantly more money? Voters in Virginia Beach,
the Eastern Shore and parts of Norfolk and the Peninsula will decide
Tuesday, and the winner will face first-term Rep. Scott Taylor, R-2nd in
November, if he makes it past underdog primary opponent Mary Jones,
a former chairwoman of the James City County Board of Supervisors.
Mallard has taught public school for 30 years, mostly in Virginia Beach
and currently in Chesapeake.
With Taylor considered potentially vulnerable, the DCCC opted to
recruit a candidate of its own. U.S. Rep. Donald McEachin, D'4th, told
the Hotline in November that the party would have a great candidate in
Luria. She formally announced in January, about four months after
Mallard began her campaign.
The DCCC announced Luria would get operational and fundraising
support. That led to a significant cash advantage for Luria to use TV ads
and direct mail in the primary. As of May 23, Luria had outspent
Mallard $283.686 to $49,203. Patrick Wilson, Unpaid staff for Va. Beach
progressive hoping for upset over party-backed opponent. Richmond
Times-Dispatch, June 10, 2018.
Karen Mallard lost the Primary. She never really had a chance. Given
the geographic size of Virginia’s 2nd Congressional District, paid advertising is
absolutely crucial. The C-Triple-C gave their hand-picked candidate Luria an
almost $6 to $1 advantage. There was no way for Mallard to overcome that
7

advantage. The D-Triple-C used this advantage of money and support in every
Congressional District in which it ran a candidate.

In dismissing the case the District Court noted that the Petitioner did not
identify a candidate he would have voted for. But this argument ignores the reality
of the situation. Faced with the enormous cost of challenging the D-Triple-C’s
anointed candidate, many would be candidates simply choose not to become
candidates. This court faced a similar situation in Bullock v. Carter; 405 U.S. 134
(1772),

Many potential office seekers lacking both personal wealth and affluent
backers are, in every practical sense, precluded from seeking the nomination
of their chosen party, no matter how qualified they might be and no matter
how broad or enthusiastic their popular support. The effect of this exclusionary
mechanism on voters is neither incidental nor remote. Not only are voters
substantially limited in their choice of candidates, but also there is the obvious
likelihood that this limitation would fall more heavily on the less affluent
segment of the community, whose favorites may be unable to pay the large
costs required by the Texas system. To the extent that the system requires
candidates to rely on contributions from voters in order to pay the assessments,
a phenomenon that can hardly be rare in light of the size of the fees, it tends
to deny some voters the opportunity to vote for a candidate of their choosing!
at the same time, it gives the affluent the power to place on the ballot their
own names or the names of persons they favor.... But we would ignore reality
were we not to recognize that this system falls with unequal weight on voters,
as well as candidates, according to their economic status, (emphasis added)
Ibid, at 143 - 144.
Who knows how many would be candidates faced with the enormous financial
commitment to compete against the D-Triple-C’s anointed candidate simply do not
run? And since that can not be determined how is a would be voter know who he
would support?

8

The D-Triple-C got what it wanted, control of the House of Representatives.
And with that control the Democrats voted Articles of Impeachment against
President Trump. The Democratic Party got its scalp but in the process it set AfricanAmerican civil rights back 75 years.

THE PETITIONER HAS STANDING AS A VOTER TO CHALLENGE THE ALLEGED CONSTITUTIONAL
VIOLATIONS

“[T]he plaintiff generally must assert his own legal rights and interests, and
cannot rest his claim to relief on the legal rights or interest of third parties” Secretary
of State of Maryland v. Munson, 467 U.S. 947, 955 (1984) (citations omitted). The
Supreme Court has recognized two exceptions to this Rule. One of these is the
Standing Rule for Voters.
“Voters have an interest in candidate ballot access requirements because
voting for their preferred candidate is one means through which voters exercise their
constitutionally protected interest in associating with politically like-minded
individuals.” Clements v. Fashing, 457 U.S. 957, 963 (1982); Bullock v. Carter, 405
U.S. 134, 143 (1972) (requires that states must examine candidate restrictions that
by the extent and nature of the impact they have on voters and their interests); see
also Lubin v. Panish, 415 U.S. 709, 716 (1975) (commenting on the intertwining of
candidates and voter’s rights and interests.)

This canon has been adopted in

International Law. “The passive aspect of the electoral rights protects the right to
stand as a candidate and, if elected, to sit as a member of Parliament. These rights
are intertwined with those of voters, as the availability of a plurality of candidates is

9

necessary to preserve the ‘free expression of the opinion of the people’ as Article 3
requires.” The European Convention, Article 3, First Protocol, Right to Free
Elections. As the Supreme Court has noted, “the rights of voters and the rights of
candidates do not lend themselves to neat separation; laws that affect candidates
always have at least some theoretical, correlative effect on voters.” Bullock v. Carter,
405 U.S. 134, 143 (1972)143 (1972). Our primary concern is with the tendency of
ballot access restrictions “to limit the field of candidates from which voters might
choose” Anderson v. Celebreeze, 460 U.S. 780. 786 (1982).
The Court described its approach to ballot access cases in Clements v.
FlashingFar from recognizing candidacy as a "fundamental right," we have held
that the existence of barriers to a candidate's access to the ballot "does not of
itself compel close scrutiny." Bullock v. Carter, 405 U.S. 134, 143 (1972). "In
approaching candidate restrictions, it is essential to examine in a realistic light
the extent and nature of their impact on voters." Ibid. In assessing challenges
to state election laws that restrict access to the ballot, this Court has not
formulated a "litmus-paper test for separating those restrictions that are valid
from those that are invidious under the Equal Protection Clause." Storer v.
Brown, 415 U.S. 724, 730 (1974). Decision in this area of constitutional
adjudication is a matter of degree, and involves a consideration of the facts and
circumstances behind the law, the interests the State seeks to protect by
placing restrictions on candidacy, and the nature of the interests of those who
may be burdened by the restrictions. Ibid.; Williams v. Rhodes, 393 U.S. 23, 30
(1968). Clements v. Flashing; supra., 457 U.S. at 963 - 64.
In her Opinion Dismissing the Petitioner’s Complaint, District Court Judge
Wright-Allen noted that the D Triple C program would have an impact on the
Petitioner’s choice as a voter. “Here, the Court recognizes that the alleged actions of
Defendants could have an effect on Plaintiff as a voter.” (emphasis in original) Slip.
Opinion at 13. Then without further analysis of that effect, the District Court went
10

back to the standing issue and found (without any authority) that Petitioner’s alleged
injury “is too abstract and attenuated to constitute a clear, concrete, and
particularized injury” Ibid.
The goal of the D-Triple-C Red to Blue Program was and is to limit the voters’
choice to one candidate, the candidate the D-Triple-C selected in the Pre-Primary in
Washington. This runs completely counter to the policy reflected in the decisions of
this Court.
THE COURT'S EXPECTATION THAT AFRICAN-AMERICAN CANDIDATES WOULD JUDICIALLY
CHALLENGE THE D TRIPLE C IS UNREALISTIC

According to the District Court the only voters with standing to challenge the
D-Triple-C Red to Blue Program are African-American Candidates or voters who are,
in essence, suing on behalf of an African American candidate. This is simply not
realistic. If any would be African American candidate sues the Democratic Party
either directly or indirectly, it is the equivalent of political suicide. That candidate’s
future in the Democratic Party at any level is non-existent. This is another reason for
rejecting the decisions of the Courts below and recognizing the standing of the
Petitioner to file the action in District Court. As this Court has recognized:

In addition to the limitations on standing imposed by Art. Ill's case-orcontroversy requirement, there are prudential considerations that limit the
challenges courts are willing to hear. "[T]he plaintiff generally must assert his
own legal rights and interests, and cannot rest his claim to relief on the legal
rights or interests of third parties." Warth v. Seldin, 422 U.S. 490, 499 (1975)
(citing Tileston v. Ullman, 318 U.S. 44 (1943); United States v. Raines, 362
U.S. 17 (I960); and Barrows v. Jackson, 346 U.S. 249 (1953)). The reason for
this rule is twofold. The limitation "frees the Court not only from unnecessary
interpretations of statutes in areas where their constitutional application
might be cloudy," United States v. Raines, 362 U.S., at 22, and it assures the
11

court that the issues before it will be concrete and sharply presented. 5 See
Baker v. Carr, 369 U.S. 186, 204 (1962). Munson is not a charity and does not
claim that its own First Amendment rights have been or will be infringed by
the challenged statute. Accordingly, the Secretary insists that Munson should
not be heard to complain that the State's charitable-solicitation rule violates
the First Amendment.
The Secretary concedes, however, that there are situations where
competing considerations outweigh any prudential rationale against thirdparty standing, and that this Court has relaxed the prudential-standing
limitation when such concerns are present. Where practical obstacles prevent
a party from asserting rights on behalf of itself, for example, the Court has
recognized the doctrine of jus tertii standing. In such a situation, the Court
considers whether the third party has sufficient injury-in-fact to satisfy the
Art. Ill case-or-controversy requirement, and whether, as a prudential matter,
the third party can reasonably be expected properly to frame the issues and
present them with the necessary adversarial zeal. See, e. g., Craig v. Boren,
429 U.S. 190, 193 -194 (1976). Secretary ofState ofMaryland v. J.H. Munson,
467 U.S. 947, 956-57 (1983).
If independent voters such as the Petitioner are barred from suing to prevent
racial discrimination in State Primaries may well mean such cases will not be filed
by anyone and racial discrimination will rise from the dead at the expense of African
American candidates.

THE CASES CITED BY THE COURTS BELOW ARE NOT RELEVANT TO THE PETITIONER'S STANDING
ARGUMENT

In Lubin v. Panish, supra., this Court discussed the public interest in limiting
the size and the number of names on the ballot.

The role of the primary election process in California is underscored by its
importance as a component of the total electoral process and its special function
to assure that fragmentation of voter choice is minimized. That function is served,
not frustrated, by a procedure that tends to regulate the filing of frivolous
candidates. A procedure inviting or permitting every citizen to present himself to
the voters on the ballot without some means of measuring the seriousness of the
12

candidate's desire and motivation would make rational voter choices more difficult
because of the size of the ballot and hence would tend to impede the electoral
process. That no device can be conjured to eliminate every frivolous candidacy
does not undermine the State's effort to eliminate as many such as possible.
That "laundry list" ballots discourage voter participation and confuse and
frustrate those who do participate is too obvious to call for extended discussion.
The means of testing the seriousness of a given candidacy may be open to debate;
the fundamental importance of ballots of reasonable size limited to serious
candidates with some prospects of public support is not. Ibid, at 715
This Court has upheld a number of litmus tests used by both parties to limit
the ballot to serious candidates. The cases relied upon by the District Court, Gottlieb
v. Fed. Election Comm’n, 143 F.3d 618 (D.D.C. 1998) and Crist v. Comm’n on
Presidential Debates, 262 F.3d 193 (2d Cir. 2001) fall within this line of cases which
include Lubin v. Panish. Limiting ballot access to fund raising ability, standing in
polls or endorsements is a far cry from excluding candidates based on the color of
their skin. The District Courts emphasis on Gottlieb and Crist is clearly misplaced.

REASONS FOR GRANTING THE PETITION
It is the “fundamental principle of our representative democracy...’’that the
people should choose whom they please to govern them’” U.S. Term Limits, Inc. v.
Thornton, 514 U.S. 779, 793 (l995)(citing 2 Elliot’s Debates 257 (A. Hamilton, New
York) The design of the D‘Triple_C Red to Blue Program is to either take this choice
away from the people or at the very least limit it. In accomplishing this goal the DTriple-C set the civil rights of African American candidates in congressional
primaries back 75 years. If this Court allows the integrity of the ballot and the right
to vote to become the political toy of either political party, our representative
democracy will fail.
13

CONCLUSION
This Court should issue a Writ of Certiorari to the United States Court of
Appeals or the Fourth Circuit.
Respectfully submitted

Robert A. Heghmann
P.O. Box 6342
Virginia Beach, Virginia 23456
(603) 866 - 3089
Bob Heghmann@Reagan.com

CERTIFICATION
A copy of this Petition has been served on Counsel for the Respondents
through the ECS System maintained by the U.S. District Court for the Eastern
District of Virginia.

14

